TOP MANAGEMENT CHALLENGES
     Department of Transportation

     Report Number: PT-2008-008

    Date Issued: November 15, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: DOT’s FY 2008                            Date:    November 15, 2007
           Top Management Challenges
           Report Number PT-2008-008
  From:    Calvin L. Scovel III                               Reply to
                                                              Attn. of:   J-1
           Inspector General
    To:    The Secretary
           Deputy Secretary

           The Office of Inspector General (OIG) has identified nine top management
           challenges for the Department of Transportation (DOT) for fiscal year (FY) 2008.
           The traveling public’s growing concerns about aging transportation infrastructure
           and increasing air travel delays will demand special attention from DOT in
           FY 2008. Key actions will include balancing funding needs to repair or replace
           aging systems while expanding capacity and determining requirements to advance
           new technologies and viable oversight structures.

           The OIG’s list for FY 2008 is summarized below. This report and the
           Department’s response (see Appendix) will be incorporated into the DOT
           Performance and Accountability Report, as required by law. The exhibit to this
           report compares this year’s management challenges with those published in
           FY 2007.

             • Continuing To Enhance Oversight To Ensure the Safety of an Aging
                Surface Transportation Infrastructure and Maximize the Return on
                Investments in Highway and Transit Infrastructure Projects
                   - Targeting Oversight Actions To Ensure the Safety of Tunnels and Bridges
                   - Ensuring That Major Projects Are Completed in an Efficient and Cost-
                      Effective Manner To Maximize the Return on Federal Infrastructure
                      Investments




                                                    i
• Addressing  Long- and Short-Term Challenges for                   Operating,
 Maintaining, and Modernizing the National Airspace System
   -   Hiring and Training Nearly 15,000 Controllers Over the Next 10 Years
   -   Keeping Existing Modernization Projects on Track
   -   Reducing Cost, Schedule, and Technical Risk With NextGen
   -   Maintaining FAA’s Aging Air Traffic Control Facilities
   -   Properly Accounting for Capital Investment Projects
• Developing a Plan To Address the Highway and Transit Funding Issues in
 the Next Reauthorization
   - Facing a Near-Term Funding Crisis in the Highway Trust Fund
   - Developing a Comprehensive Highway Funding Framework Quickly
• Reducing Congestion in America’s Transportation System
   - Reducing Delays, Improving Airline Customer Service, and Meeting the
       Anticipated Demand for Air Travel in the Near Term
   - Keeping Planned Infrastructure and Airspace Projects on Schedule To
     Relieve Congestion and Delays
   - Leading Stakeholders
   - Developing Innovative Funding Solutions for Infrastructure Needs
• Improving Oversight and Strengthening Enforcement of Surface Safety
 Programs
   - Improving Motor Carrier Safety With More Complete Information on
       Vehicle Crashes and Stronger Enforcement Against Repeat Violators
   - Closely Monitoring Mexican Motor Carriers Operating Throughout the
       United States Under the Department’s Demonstration Project
   -   Countering Fraud in the Commercial Driver’s License Program
   -   Resolving Hours of Service Rules for Commercial Drivers
   -   Improving State Accountability in Programs for Reducing Alcohol-
       Impaired Driving
   -   Further Reducing Railroad Collisions and Fatalities Through More Safety
       Oversight
• Continuing To Make a Safe Aviation System Safer
   - Taking Proactive Steps To Improve Runway Safety in Light of Recent
       Serious Incidents
   - Ensuring Consistency and Accuracy in Reporting and Addressing
     Controller Operational Errors
   - Strengthening Risk-Based Oversight Systems for Air Carriers, External
     Repair Facilities, and Aircraft Manufacturers
   - Maintaining a Sufficient Number of Inspectors
   - Strengthening Oversight of the Airman Medical Certification Program


                                       ii
 • Strengthening the Protection of Information Technology Resources,
   Including the Critical Air Traffic Control System
    - Enhancing Air Traffic Control System Security and Continuity Planning
    - Testing and Strengthening the Information System Security Program at
      DOT Headquarters
    - Ensuring the Timeliness of Data Recording and Protection of Personally
      Identifiable Information When Interfacing With Non-Federal Systems
    - Continuing To Enhance Oversight of Information Technology Investments
 • Managing Acquisition and Contract Operations More Effectively To
   Obtain Quality Goods and Services at Reasonable Prices
    - Increasing Incurred-Cost Audits of Procurement Contracts To Reduce
      Unallowable Charges
    - Developing Strategies for the Future Acquisition Workforce
    - Fostering High Ethical Standards Throughout the Department and Its
      Contracting Programs To Maintain the Public Trust
    - Enhancing Oversight on Federal-Aid Highway Construction Projects To
      Prevent Abuse in Contractor Quality Control Programs
 • Reforming Intercity Passenger Rail
    - Improving Amtrak’s Cost-Effectiveness To Sustain Its Financial Progress
    - Overcoming Challenges to Improving Amtrak’s On-Time Performance
    - Reauthorizing Amtrak To Facilitate Reform

If you have any questions concerning this report, please contact me at (202)
366-1959. You may also contact David A. Dobbs, Principal Assistant Inspector
General for Auditing and Evaluation, at (202) 366-1427.


                                      #




                                      iii
                                        Table of Contents

Continuing To Enhance Oversight To Ensure the Safety of an Aging Surface
Transportation Infrastructure and Maximize the Return on Investments in
Highway and Transit Infrastructure Projects ..................................................... 1

Addressing Long- and Short-Term Challenges for Operating, Maintaining,
and Modernizing the National Airspace System ............................................... 6

Developing a Plan To Address the Highway and Transit Funding Issues in
the Next Reauthorization ................................................................................. 11

Reducing Congestion in America’s Transportation System ........................... 13

Improving Oversight and Strengthening Enforcement of Surface Safety
Programs .......................................................................................................... 18

Continuing To Make a Safe Aviation System Safer........................................ 23

Strengthening the Protection of Information Technology Resources,
Including the Critical Air Traffic Control System........................................... 31

Managing Acquisition and Contract Operations More Effectively To Obtain
Quality Goods and Services at Reasonable Prices .......................................... 36

Reforming Intercity Passenger Rail................................................................. 41

Exhibit. Comparison of FY 2008 and FY 2007 Top Management
Challenges........................................................................................................ 43

Appendix. Department Comments ................................................................. 44
                                                                                    1

1. Continuing To Enhance Oversight To Ensure the Safety of
   an Aging Surface Transportation Infrastructure and
   Maximize the Return on Investments in Highway and
   Transit Infrastructure Projects
Recent fatal highway incidents highlight the need for the Department to focus on
the safety of the Nation’s surface transportation infrastructure, particularly for
aging tunnels and bridges needing costly rehabilitation, repair, or replacement.
The Department also needs to maximize the Federal transportation investment by
ensuring that highway and transit projects are completed in a timely and cost-
effective manner. This is critical at a time when infrastructure needs are
increasing and the Nation’s fiscal resources are struggling to meet growing
demands. Going forward, the Department will be challenged to balance the need
to provide funding for projects to repair or replace aging infrastructure with
funding for projects to reduce congestion with new capacity.

We see two key challenges that need continued management emphasis:

 • The Federal Highway Administration (FHWA) must target its oversight
   actions to ensure the safety of highway tunnels and bridges.

 • FHWA and the Federal Transit Administration (FTA) must ensure efficient use
   of Federal funds for highway and transit projects. FHWA must also promote
   cost-saving practices such as value engineering (VE), and FTA must provide
   vigilant oversight to control costs and schedules on several massive transit
   infrastructure projects.

Targeting Oversight Actions To Ensure the Safety of Tunnels and Bridges
Recent tragic highway incidents underscore the need for FHWA to ensure that its
oversight actions target tunnels and bridges that represent high-priority safety risks
so that problems are identified, evaluated, and remediated in a timely and thorough
manner. In the past 18 months, two major incidents shook the traveling public’s
confidence in the safety of the Nation’s tunnels and bridges. Specifically, in
July 2006, a motorist was killed by falling ceiling panels in a tunnel of the Central
Artery/Tunnel Project in Boston. In August 2007, 13 people were killed when the
Interstate 35W Bridge in Minneapolis, which spanned the Mississippi River,
collapsed during the evening rush hour.
                                                                                                  2

Accordingly, FHWA needs to take the following actions.

Enhance the safety of the Nation’s highway tunnels. On August 16, 2007, we
reported 1 that FHWA will need to exercise greater oversight to ensure that the
Commonwealth of Massachusetts completes the remaining phases of its Stem to
Stern Safety Review—a comprehensive, project-wide review of the Central
Artery/Tunnel Project—and conducts remedial work to address safety risks in a
timely, thorough, and independent manner. The timely completion of this review
is critical to restoring public confidence in the safety of the project’s structures,
particularly in light of its troubled history of schedule delays, cost increases, and
construction quality problems. The magnitude of the review and the intense
public concern for safety will challenge FHWA and the Department beyond their
normal oversight roles. Since the Stem to Stern Safety Review is planned to last
well into 2008, FHWA’s oversight actions must ensure that the review remains a
top priority for the Commonwealth to restore the public’s confidence.

In addition, the safety problems that surfaced in the Central Artery/Tunnel Project
call into question the oversight and quality control processes for constructing and
maintaining the Nation’s highway tunnels. Considering the known problems of
the Central Artery tunnels, FHWA should develop and implement a system to
ensure that states inspect and periodically report on tunnel conditions. To begin
addressing these problems, FHWA officials informed us that they will issue an
advance notice of proposed rulemaking by December 2007 to seek input regarding
the development of national tunnel inspection standards. FHWA should
aggressively move forward on this rulemaking and establish rigorous inspection
standards as soon as possible.

Improve oversight of the Nation’s structurally deficient bridges. The collapse
of the Interstate 35W Bridge in Minneapolis underscores the importance of
vigilant oversight for structurally deficient bridges (those that have major
deterioration, cracks, or other deficiencies in their structural components). In
September 2007, we testified 2 that nearly 72,500 bridges across the Nation were
designated as “structurally deficient.” According to FHWA’s estimates, about
$65 billion could be invested immediately to address current bridge deficiencies.
However, only $21.6 billion was authorized for the Highway Bridge Program
through FY 2009.



1
    OIG Report Number MH-2007-063, “Initial Assessment of the Central Artery/Tunnel Project Stem to
    Stern Safety Review,” August 16, 2007. OIG reports and testimonies are available on our website:
    www.oig.dot.gov.
2
    OIG Testimony Number CC-2007-095, “Federal Highway Administration’s Oversight of Structurally
    Deficient Bridges,” September 5, 2007. OIG Testimony Number CC-2007-101, “FHWA Can Do More
    in the Short Term To Improve Oversight of Structurally Deficient Bridges,” September 20, 2007.
                                                                                        3

Our September 2007 testimonies stated that Federal oversight of bridge
inspections and funding for bridge rehabilitation and replacement constitute
significant challenges. To enhance oversight, FHWA should take the following
actions:

    • Develop a data-driven, risk-based approach to bridge oversight to better
      identify and target those structurally deficient bridges most in need of
      recalculation of load ratings and postings.

    • Finalize and distribute the revised Bridge Program Manual to its 52 Division
      Offices as quickly as possible and ensure that FHWA engineers make greater
      use of existing bridge data as part of the annual compliance review process.

    • Ensure that all 52 Division Offices conduct rigorous and thorough assessments
      of any potential risks associated with structurally deficient bridges, as directed
      in February 2007. FHWA must also define how it will respond to any specific,
      high-priority risks that the Division Offices identify.

    • Identify and implement a process to determine the amount of Federal funds
      expended on structurally deficient bridges.

Ensuring That Major Projects Are Completed in an Efficient and Cost-
Effective Manner To Maximize the Return on Federal Infrastructure
Investments
With the increasing demand for limited Federal resources, completing highway
and transit projects in a timely and cost-effective manner is more critical than ever.
To maximize the return on Federal infrastructure investments, both FHWA and
FTA must provide vigilant oversight of their grantees to ensure that projects are
completed on time and within budget.

FHWA must reduce highway project costs by promoting the use of value
engineering. One way to more effectively use Federal highway funds is to lower
project costs by increasing VE usage. VE is the systematic process of review and
analysis of a project during the concept and design phases. A multi-disciplined
team of persons independent of the project conducts the review. VE provides an
opportunity for states to obtain the most value from Federal highway funds by
saving on planned construction projects. It also serves as a key tool in FHWA’s
stewardship of Federal funds.

Our March 2007 report on FHWA’s VE program 3 identified ways for FHWA to
improve states’ VE programs. We found that states have missed opportunities to

3
    OIG Report Number MH-2007-040, “Value Engineering in the Federal-Aid Highway Program,”
    March 28, 2007.
                                                                                           4

realize additional savings. For example, from FY 2001 through FY 2004, states
collectively reported $4.2 billion in VE-recommended savings. However, we
estimated that during the same 4-year period, states could have saved an additional
$906 million ($725 million in Federal funds) by conducting all required VE
studies ($117 million) and by achieving the national average of completing
44.4 percent of VE recommendations ($789 million). These savings could have
been reprogrammed to other transportation projects. To increase cost savings for
federally supported highway projects in the future, FHWA should improve its VE
program by revising policies, strengthening oversight activities, and disseminating
best practices to states.

FTA must provide vigilant oversight of transit projects to control costs and
schedules. FTA has several massive infrastructure projects in various stages of
design or construction. The agency must ensure that project sponsors keep these
projects on schedule and within budget, particularly those projects in the
Washington, D.C., Metropolitan Area and New York City. Vigilant oversight of
these projects will be particularly important as FTA simultaneously oversees a
large portfolio of other nationwide transit infrastructure projects. In its “Annual
Report on Funding Recommendations—Proposed Allocation of Funds for Fiscal
Year 2008,” FTA reported 10 existing fully funded infrastructure projects (not
including the Washington, D.C., and New York City projects) with total Federal
funding of about $4.6 billion. FTA reported that an additional 12 projects are
currently competing for full funding.

The Dulles Corridor Metrorail Project in the Washington, D.C., Metropolitan Area
will challenge FTA in several respects. In July 2007, we reported 4 on key risk
indicators in this project that merit the Department’s close monitoring in light of a
potential Federal investment of $1.475 billion (including a $900 million New
Starts grant and a separate loan and line of credit). Among the risks we identified
were increases in cost estimates of over $1 billion and schedule delays of about
4 years. We observed that the reported cost increases could prevent the project
from meeting FTA’s cost-effectiveness standards, which would make it ineligible
for a New Starts grant.

After we issued our report, FTA examined the project cost estimate and identified
that certain elements of the project were underestimated. FTA also found that the
project did not meet cost-effectiveness standards. The project sponsors have since
revised the project scope and submitted a new, lower estimate. FTA is examining
the new estimate, but it could find that the project still does not meet cost-
effectiveness standards. If the project goes forward, however, FTA will be
challenged by the unusually complex organizational structure of the project. This

4
    OIG Report Number MH-2007-060, “Baseline Report on Major Project Monitoring of the Dulles
    Corridor Metrorail Project,” July 27, 2007.
                                                                                  5

includes a large network of key Federal, state, local, and private sector players
with a stake in the project as well as the possibility of further cost increases and
schedule delays.

Further, the magnitude of ongoing major surface transportation projects in New
York City with estimated costs of over $16 billion (these include about
$8.5 billion in Federal funds) warrants close FTA oversight. These projects
include the following:

 • Lower Manhattan reconstruction and enhancement transportation projects
   resulting from the September 11, 2001, terrorist attacks. Federal funds of
   $4.55 billion are allocated for this effort.

 • The East Side Access project. Proposed New Starts funding for this project is
   $2.63 billion.

 • Phase I of the Second Avenue Subway. Proposed New Starts funding for this
   project is about $1.3 billion.

Controlling costs and schedules will be especially critical in the case of the Lower
Manhattan recovery projects because of the Federal funding cap of $4.55 billion.
Further, any costs that exceed Federal limits increase the pressure on a project
sponsor to identify local funds to cover any cost overruns. Although the East Side
Access and Second Avenue projects are not subject to the Federal cap, they still
involve a large Federal funding commitment warranting close FTA oversight to
ensure that project sponsors are exercising sound project and financial
management.

For further information, the following reports and testimonies can be found on
the OIG web site at http://www.oig.dot.gov:

 • Final Report on the Independence of Central Artery/Tunnel Project Inspection
   Contractors
 • Initial Assessment of the Central Artery/Tunnel Project Stem To Stern Safety
   Review
 • Audit of Oversight of Load Ratings and Postings on Structurally Deficient
   Bridges on the National Highway System
 • Federal Highway Administration’s Oversight of Structurally Deficient Bridges
 • Value Engineering in the Federal-Aid Highway Program
 • Baseline Report on Major Project Monitoring of the Dulles Corridor Metrorail
   Project
                                                                                               6

2. Addressing Long- and Short-Term Challenges for
   Operating, Maintaining, and Modernizing the National
   Airspace System
Over the last year, Congress, the Federal Aviation Administration (FAA), and
aviation stakeholders have debated important questions about how best to finance
FAA, reauthorize a wide range of aviation programs, and advance the Next
Generation Air Traffic Management System (NextGen). Several alternatives have
been proposed; these include imposing user fees, adjusting the existing excise tax
structure, and allowing the agency to borrow for long-term capital investments.
While there is disagreement over how to finance FAA, there is general agreement
that the agency must fundamentally change how air traffic is managed to meet
forecasted air travel demands.

Congress has established a short-term FAA financing measure that reflects the
status quo, but a long-term reauthorization is needed. How FAA should be
financed is clearly a policy decision for the Congress. Regardless of the funding
mechanism that is ultimately selected, the Department and FAA will face
challenges in operating and maintaining the current system while concurrently
advancing NextGen. These include (1) hiring and training enough air traffic
controllers to address the surge in retirements; (2) keeping existing modernization
projects on track; (3) reducing cost, schedule, and technical risks with NextGen;
(4) maintaining FAA’s aging air traffic control facilities; and (5) properly
accounting for capital investment projects.

Hiring and Training Nearly 15,000 Controllers Over the Next 10 Years
FAA anticipates a significant surge in controller attrition as the controllers who
were hired after the 1981 strike begin retiring. To address this issue, FAA must
hire and train over 15,000 new controllers through the year 2016. In December
2004, FAA developed a comprehensive workforce plan and issued the first in a
series of annual reports to Congress. FAA issued the first update to the plan in
June 2006 and the second in March 2007.

In February, we issued the results of our review of FAA’s progress in
implementing its controller workforce plan. 5 Overall, we found that FAA
continues to make progress in implementing a comprehensive staffing plan to
address the surge in retirements. For example, we found that FAA has
significantly improved its hiring process and has reduced the time and costs to
train new controllers. However, further progress is still needed in the following
key areas:

5
    OIG Report Number AV-2007-032, “FAA Continues To Make Progress in Implementing Its Controller
    Workforce Plan, but Further Efforts Are Needed in Several Key Areas,” February 9, 2007.
                                                                                 7

 • Completing validation of accurate facility-level staffing standards. This is a
   critical component because FAA has over 300 air traffic facilities with
   significant differences in air traffic levels and complexity.

 • Establishing baseline metrics to measure the effectiveness of controller
   productivity initiatives. FAA must ensure that reductions in staffing are a
   result of increased productivity and not simply fewer controllers controlling
   more traffic.

 • Continuing efforts to reduce the time and costs associated with on-the-job
   training. This is the longest and most expensive portion of new controllers’
   training.

We will continue to monitor FAA’s progress and report on its actions to address
this significant challenge. We are currently reviewing FAA’s management of the
controller on-the-job training process and plan to issue a report early next year.

Keeping Existing Modernization Projects on Track
FAA’s major acquisitions have a long history of cost growth and schedule delays.
For example, two acquisitions, the Wide Area Augmentation System (a satellite-
based navigation system) and the Standard Terminal Automation Replacement
System (new software and hardware for controllers who manage traffic in the
vicinity of airports), have experienced cost growth in excess of $4.2 billion since
their inception. Problems with FAA acquisitions are the result of overly ambitious
plans, changing requirements, complex software development, and poor contract
oversight.

It will be important to keep existing modernization projects on track because
about 30 of these are intended to serve as platforms for NextGen. These include
the $2.1 billion En Route Automation Modernization project to replace hardware
and software for facilities that manage high-altitude traffic. We note that the
project is within budget and is on schedule to be deployed at Salt Lake Center in
2008.

While FAA has done a better job of managing acquisitions over the last several
years, some programs are still at risk for further cost growth, schedule slips, or
diminishing benefits. For example, the benefits (expected cost savings) of the
FAA Telecommunications Infrastructure program (an effort to replace and
consolidate all telecommunications into a single system) have eroded as costs have
increased and completion schedules have slipped. FAA needs to prevent cost
growth, schedule slips, and performance shortfalls with ongoing projects that
could delay the NextGen capabilities needed to enhance capacity.
                                                                                          8

Reducing Cost, Schedule, and Technical Risk With NextGen
Although the costs for developing and implementing NextGen remain uncertain,
FAA expects to spend $4.6 billion on various NextGen initiatives between 2008
and 2012. The bulk of these funds will be spent on developmental efforts. A key
project includes the Automatic Dependent Surveillance-Broadcast program—a
satellite-based system that allows aircraft to broadcast their position to controllers
and other properly equipped aircraft. The development and execution of NextGen
is the most complex, high-risk undertaking FAA has ever attempted and will
require multibillion-dollar investments from the Federal government (for new
ground automation systems) and airspace users (for new avionics).

In our February 2007 report, we examined progress with FAA’s Joint Planning
and Development Office, 6 which is responsible for developing a vision for
NextGen. We identified the range of actions needed to reduce risk with this
complex, costly effort. We recommended, among other things, that FAA develop
a strategy for obtaining the necessary expertise to execute NextGen initiatives and
review existing modernization projects to determine required adjustments. FAA
has begun addressing our concerns. FAA must also continue to address complex
engineering and integration issues and develop an effective human factors
program (for controllers and pilots) to ensure that anticipated changes can be
safely introduced.

Maintaining FAA’s Aging Air Traffic Control Facilities
FAA will be challenged to focus on NextGen initiatives while concurrently
attending to its aging air traffic control facilities and related equipment (e.g.,
electrical power systems). FAA has 21 En Route facilities, 214 terminal facilities,
and over 22,000 unstaffed facilities. According to FAA, many of these facilities
are over 25 years old; some may have exceeded their useful life expectancy and
may not meet current operational requirements. For example, FAA’s En Route
Centers are now over 40 years old. In 2007, FAA budgeted approximately
$400 million, or 16 percent, of its $2.5 billion capital account for facilities. A
longer term but controversial challenge for the Department and FAA is
determining to what extent FAA can realign or consolidate its air traffic facilities
based on new technology. FAA must develop a cost-effective strategy for
maintaining its existing facilities commensurate with NextGen technologies that
could potentially reduce operating costs.




6
    OIG Report Number AV-2007-031, “Joint Planning and Development Office: Actions Needed To
    Reduce Risks with the Next Generation Air Transportation System,” February 12, 2007.
                                                                                 9

Properly Accounting for Capital Investment Projects
Congress provides more than $2 billion annually to FAA to invest in modernizing
air traffic control systems. It takes many years to develop and test capital
investment projects (such as the En Route Automation Modernization program)
before they can be deployed for operational use. All of these investments are
recorded in the Construction in Progress (CIP) account. Properly accounting for
billions of dollars in capital investment has been a longstanding challenge for
FAA. For years, FAA has relied on a labor-intensive process to adjust the CIP
account balance for the annual financial statements reporting. For FY 2006,
however, FAA was unable to support the CIP account balance which totaled
$4.7 billion as of September 30, 2006. As a result, both FAA and the Department
received a qualified audit opinion on the FY 2006 financial statements.

During FY 2007, FAA devoted extensive resources and management attention to
cleaning up the CIP account balance to overcome the qualified opinion. As part of
these correction efforts, FAA also implemented CIP business process
enhancements. These included standardizing the methodology used to calculate
unit costs, including overhead allocation, for asset deployment. The results were
successful in overcoming the 2006 qualified opinion. However, weaknesses still
remain in its implementation of the enhanced CIP business process and need to be
addressed during FY 2008. To ensure the agency properly accounts for capital
investment projects and avoids going back to prior period practices, FAA needs to
institutionalize the enhanced CIP procedures throughout the organization.


For further information, the following reports and testimonies can be found on
the OIG web site at http://www.oig.dot.gov:

 • Perspectives on FAA’s FY 2007 Budget Request and the Aviation Trust Fund
 • FAA Has Opportunities To Reduce Academy Training Time and Costs by
   Increasing Educational Requirements for Newly Hired Air Traffic Controllers
 • Next Steps for the Air Traffic Organization
 • Report on Controller Staffing: Observations on FAA’s 10-Year Strategy for the
   Air Traffic Controller Workforce
 • Addressing Controller Attrition: Opportunities and Challenges Facing the
   Federal Aviation Administration
 • Opportunities To Improve FAA’s Process for Placing and Training Air Traffic
   Controllers in Light of Pending Retirements
 • Review of Staffing at FAA’s Combined Radar Approach Control and Tower
   with Radar Facilities
 • Joint Planning and Development Office: Actions Needed To Reduce Risks with
   the Next Generation Air Transportation System
                                                                        10

• FAA Continues To Make Progress in Implementing its Controller Workforce
  Plan, But Further Efforts are Needed in Several Key Areas
• FAA’s FY 2008 Budget Request: Key Issues Facing the Agency
• Actions Needed To Reduce Risk With the Next Generation Air Transportation
  System
• Inspector General Testifies Before the House Aviation Subcommittee
  Regarding FAA Financing Proposals
• Quality Control Review of Audited Financial Statements for FYs 2006 and
  2005, Federal Aviation Administration
                                                                                                      11

3. Developing a Plan To Address the Highway and Transit
   Funding Issues in the Next Reauthorization
The Department faces two significant challenges regarding Federal highway
program funding. First, it must decide how to address Highway Trust Fund (HTF)
revenue shortfalls that may require near-term reductions in Federal highway
spending. Second, the Department must decide at what level it will propose that
highway and transit programs be funded in the upcoming surface transportation
reauthorization bill, and how that funding level will be financed.

Facing a Near-Term Funding Crisis in the Highway Trust Fund
Highway funding levels are largely determined by the amount of revenue from the
Federal motor fuel excise tax and other sources that are deposited into the HTF.
HTF revenues for 2009 are now expected to fall far short of the levels previously
anticipated. Unless addressed, this shortfall could lead to reductions in obligation
limitations for Federal highway programs below the levels anticipated in the
current authorization to prevent HTF insolvency. For instance, the American
Association of State Highway and Transportation Officials (AASHTO) has
projected a $4.3 billion Highway Account revenue shortfall in 2009 that could
require an obligation reduction in the highway program of about $16 billion. The
Department must help develop a consensus among the States, the highway
community, and Congress as to if, and how, this shortfall in HTF revenues will be
made up.

Demand for More Investment and Rapid Cost Escalation Will Increase the
Pressure To Expand Highway Funding.               The Department’s most recent
         7
estimate is that a 12-percent annual funding increase, in constant dollars, is
required to maintain the Nation’s highways and bridges. 8 This would require an
average annual investment of about $79 billion by all levels of government and the
private sector (in constant 2004 dollars), compared with the $70 billion of capital
spent in 2004. Additional increases in investment would also be required above
these amounts to offset the effects of inflation.

The amount needed to offset the effects of inflation in highway construction and
maintenance costs has soared dramatically in recent years. As we reported in
September 2007, highway construction and maintenance costs nationwide grew
about three times faster from 2003 through 2006 than their fastest growth rate
during any 3-year period between 1990 and 2003. These increases have

7
    2006 Status of the Nation’s Highways, Bridges and Transit: Conditions and Performance. Report to
    Congress. U.S. Department of Transportation.
8
    This includes both structural maintenance and the maintenance of current congestion levels in light of
    increased usage. It also assumes no change in costs to users.
                                                                                  12

substantially reduced the purchasing power of highway construction funds and
have led some state planners to cancel or delay projects.

These increases were largely the result of escalation in the cost of commodities
used in highway projects, such as steel and asphalt, and reflect structural, not
transitory, economic changes. Consequently, commodity costs can be expected to
remain elevated and could possibly continue to expand in the near future. If
highway construction costs continue to increase at the 2006 rate, they will have
increased by 37 to 60 percent during the term of the current highway bill. The
next highway bill may need to provide a significant increase in funding just to
maintain the current level of highway construction nationwide.

The needed Federal investment in highways could be reduced by increased
implementation of congestion pricing, accelerated deployment of operational
technologies (such as Intelligent Transportation System technologies), and
innovation in construction methods or materials. Further, innovative financing
tools can reduce the requirement for near-term Federal highway program
appropriations by permitting current revenues to be leveraged and highway
construction to proceed more rapidly than would otherwise be possible. However,
these tools are not all without controversy, particularly public/private partnerships
and high occupancy toll (HOT) lanes. Wider support for these financing
techniques needs to be developed if the Department proposes to expand their use.

Developing a Comprehensive Highway Funding Framework Quickly
The current highway authorization expires at the end of FY 2009. The
Department will need to determine what level of highway funding it will propose
in the reauthorization in light of the growing demand for these investments and the
escalating costs of meeting this demand. It will also need to determine how this
level of investment should be funded. To make these determinations, the
Department will need to consider changes to the existing highway funding
structure as well as alternative, innovative financing mechanisms; it will also need
to develop support for new financing methods.


For further information, the following report can be found on the OIG web site
at http://www.oig.dot.gov:

   • Growth in Highway Construction and Maintenance Costs
   • Quality Control Review of Audited Financial Statements for FYs 2006 and
     2005, Highway Trust Fund
                                                                                13


4. Reducing Congestion in America’s Transportation System
The Department is pursuing a national strategy to reduce congestion across all
modes of transportation. Congestion limits economic growth, wastes billions of
gallons of fuel, and costs billions of dollars in lost productivity each year. This
will likely remain a prominent challenge for the Department for some time,
particularly with regard to air travel. We are seeing record-breaking flight delays
and cancellations, and forecasted air travel demands will continue to strain the
capacity of the system. This year’s airline customer service issues drew national
attention and underscored the need for the Department’s continued focus in this
area. The Department must make it a top priority to reduce aviation delays and
alleviate customer dissatisfaction.

While the Department has made progress on implementing several congestion-
related initiatives this past year, the strategy was developed before this year’s
overwhelming air travel problems. The Department’s accomplishments this past
year in implementing its national strategy included selecting Miami, Minneapolis,
New York, San Francisco, and Seattle to participate in the Urban Partnership
Agreement program after an 8-month nationwide competition.                   These
communities will demonstrate strategies with proven effectiveness in mitigating
traffic congestion. The Department also selected the first six interstate highway
corridors as participants in the Corridors of the Future Program: (1) I-95 from
Washington, D.C., to Florida; (2) I-70 from Missouri to Ohio; (3) I-15 from
California to Utah; (4) I-5 from California to Washington; (5) I-10 from California
to Florida; and (6) I-69 from Texas to Michigan.

The Department’s specific challenges for reducing congestion include:

 • reducing aviation delays, improving customer service, and meeting near-term
   demand for air travel;

 • keeping planned infrastructure and airspace projects on schedule to relieve
   congestion and delays;

 • leading stakeholders that have divergent views on resolving transportation
   congestion; and

 • meeting demands for additional resources in a tight budgetary environment.
                                                                                  14

Reducing Delays, Improving Airline Customer Service, and Meeting the
Anticipated Demand for Air Travel in the Near Term
During the first 7 months of 2007, airlines’ on-time performance was at the lowest
percentage (72 percent) recorded in the last 10 years with nearly 28 percent of
flights delayed, cancelled, or diverted. These rising flight delays are leading to
more on-board tarmac delays. During the same period, over 54,000 scheduled
flights—affecting nearly 3.7 million passengers—experienced taxi-in and taxi-out
times of 1 to 5 hours or more. This is an increase of nearly 42 percent (from
38,076 to 54,029) as compared to the same period in 2006 (see table 4-1).
Table 4-1. Number of Flights With Long, On-Board Tarmac Delays of 1 to 5+ Hours
                    January Through July of 2006 and 2007
                  Time Period               2006            2007   % Change

               1-2 Hrs.                33,438           47,558     42.23
               2-3 Hrs.                3,781            5,213      37.87
               3-4 Hrs.                710              1,025      44.37
               4-5 Hrs.                120              189        57.50
               5 or > Hrs.             27               44         62.96
               Total:                  38,076           54,029     41.90
               Source: Bureau of Transportation Statistics data

Consumer complaints are also on the rise. DOT’s Air Travel Consumer Reports
disclosed that for the first 7 months of 2007, complaints relating to flight problems
(delays, cancellations, and missed connections) involving U.S. airlines more than
doubled (1,096 to 2,468) for the same period in 2006. One-third of the Nation’s air
traffic passes through New York, and three-fourths of the chronic delays around
the country can be traced to delays at the New York airports.

Airlines, airports, FAA, and DOT must work together to reduce delays and
minimize the impact on passengers when these delays occur. Secretary Peters is
committed to taking action, but the Department faces several challenges in
addressing this issue. Although there is no “silver bullet,” a cumulative mix of
solutions could help. These include scheduling procedures, air traffic control
modernization, and ground infrastructure (new runways). Complex policy
questions, such as peak-hour pricing, will also complicate potential solutions.

Short- and long-term solutions to these delay problems must be pursued. It is also
important to remember that the traveling public will likely face similar air travel
problems in the spring and summer of 2008 and 2009 before they experience any
real relief from capacity problems. The airlines and airports must do their part in
the short term to effectively implement their customer service plans—including
contingency plans—especially when extraordinary flight disruptions cause
significant delays, cancellations, and diversions. The Department should also take
                                                                                                    15

a more active role in overseeing customer service issues to ensure that airlines
comply with their policies on flight problems.

Keeping Planned Infrastructure and Airspace Projects on Schedule To
Relieve Congestion and Delays
While new technologies can help enhance arrival rates, FAA reports that new
runways provide the most increases in capacity. Since 2000, new runways have
been built at Detroit, Phoenix, Miami, and other airports. Without these new
runways, congestion undoubtedly would have been much worse.

Seven key runway projects are currently underway, including projects at
Washington Dulles and Chicago O’Hare International Airports. Table 4-2
provides information on major runway projects and expected completion dates
from FAA’s Operational Evolution Plan, 9 the agency’s blueprint for enhancing
capacity.

          Table 4-2. Status of Major New Runway Projects, September 2007

       Airport               Initial OEP    Current                     Phase         Current Cost
                             (June 2001)   Estimated                                    Estimate
                              Estimated    Completion                                 (in millions)
                           Completion Date   Date
Philadelphia*
                           Not in initial OEP         Jan 2009      Construction            $65
(Runway 17/35)
Seattle-Tacoma
                                Nov 2006              Nov 2008      Construction         $1,129**
(Runway 16R/34L)
Washington-Dulles
                           Not in initial OEP         Nov 2008      Construction            $356
(Runway 1L/19R)
Chicago O’Hare
                           Not in initial OEP         Nov 2008      Construction          $455**
(Runway 9L/27R)
Chicago O’Hare*
                           Not in initial OEP         Nov 2008      Construction          $240**
(Runway 10L/28R)
Chicago O’Hare
                           Not in initial OEP         2012**        Construction         $1,265**
(Runway 10C/28C)
Charlotte
                               June 2004              Feb 2010      Construction            $300
(Runway 17/35)
Sources: FAA with Airport Sponsor Updates
*Extension of existing runway.
**Update of FAA data obtained from airport sponsor.

These runway projects are expected to significantly enhance airport operations and
decrease delays. The Department’s challenge is to make sure the navigation
9
  FAA’s Operational Evolution Partnership has been the agency’s overall blueprint for enhancing capacity
and includes runways, airspace changes, and new procedures. In June 2007, FAA expanded the scope of
the plan beyond capacity to include commitments for the Next Generation Air Transportation System.
                                                                                    16

equipment, new procedures, and airspace modifications are in place when these
projects are commissioned so that the expected benefits will be achieved.

As we have noted in the past, airspace redesign efforts are often overlooked but
are important short-term initiatives. History shows that airspace changes are
critical to realizing the full potential of new runways and can enhance capacity
even without new infrastructure. Currently, FAA is pursuing seven airspace
redesign projects throughout the Nation, including a major effort to revamp
airspace in the New York/New Jersey/Philadelphia area. FAA expects this project
to make better use of existing runways in the area and provide more flexibility to
manage delays in severe weather. Once implemented, FAA believes the redesign
effort could reduce delays by as much as 200,000 hours annually.

Leading Stakeholders
Targeted infrastructure investments can help to alleviate transportation congestion,
but the Department faces a difficult challenge in convincing various stakeholders
to make this a priority. The Department’s role in funding or approving
transportation projects varies greatly across the various modes. For example,
while the Department funds and operates the air traffic control system, local and
state agencies manage highway and transit priorities in their respective locales.
Congress is also very active in deciding which highway and transit projects to
fund. To successfully meet this challenge, the Department will need to leverage
its available tools to influence stakeholder decisions on infrastructure
improvement.

Developing Innovative Funding Solutions for Infrastructure Needs
The Department will need to decide on the level of Federal investment in
infrastructure it can support given the current constraints of the Federal budget.
The Department also needs to continue to develop innovative funding solutions for
the transportation infrastructure by either identifying new sources of revenue or
using existing sources more effectively. While the Department is working to
reduce barriers to private sector investment, it needs to articulate its case that any
divestitures of public transportation infrastructure assets are in the best interest of
the taxpayers in the long term.


For further information, the following reports and testimonies can be found on
the OIG web site at http://www.oig.dot.gov:

 • Airspace Redesign Efforts Are Critical To Enhance Capacity but Need Major
   Improvements
                                                                         17

• Aviation Industry Performance: Trends in Demand and Capacity, Aviation
  System Performance, Airline Finances, and Service to Small Airports (June
  2005 and August 2006)
• Audit of Small Community Aviation Delays and Cancellations
• Observations on Current and Future Efforts To Modernize the National
  Airspace System
• Observations on the Progress and Actions Needed To Address the Next
  Generation Air Transportation System
• Follow-Up Review: Performance of U.S. Airlines in Implementing Selected
  Provision of the Airline Customer Service Commitment.
• Refocusing Efforts To Improve Airline Customer Service
• Actions Needed To Improve Airline Customer Service
• Actions Needed To Minimize Long, On-Board Delays
• Actions Needed To Improve Airline Customer Service and Minimize Long, On-
  Board Delays
                                                                                                               18

5. Improving Oversight and Strengthening Enforcement of
   Surface Safety Programs
Safety is central to the mission of the Department, and three of its Operating
Administrations have extensive regulatory authority and safety programs—the
Federal Motor Carrier Safety Administration (FMCSA), the National Highway
Traffic Safety Administration (NHTSA), and the Federal Railroad Administration
(FRA). In 2006, over 42,500 highway traffic deaths and 368 highway-rail
crossing deaths occurred in the United States.

The number of fatalities declined in 2006, as did the rate of fatalities per
100 million vehicle-miles traveled (1.42). The Department’s goal is to reduce the
fatality rate to 1.0 by 2011; meeting this goal will clearly be a challenge. As
shown in figure 5-1, we estimate a 2011 fatality rate of 1.34 based on past trends.
   Figure 5-1. In the Coming Years, the Highway Fatality Rate Will Need To Fall
             Below Projected Rates To Meet the Target Rate by 2011*
 Fatality Rate
2.00

        1.51      1.51     1.48      1.44       1.46     1.42 1.41         1.39      1.38     1.36     1.34
1.50

                                                                 1.34      1.25
1.00                                                                                 1.17      1.08
                                                                                                        1.00

0.50
                         Actual Fatality Rate            Projected Rate             Path to Target

0.00
   2001          2002    2003     2004      2005       2006     2007      2008      2009      2010      2011
                                                       Year
    Source: Actual fatality rates are from NHTSA’s 2005 Transportation Safety Facts and 2006 Annual
    Assessment Report. Projected rates for 2007 through 2011 were calculated using NHTSA’s forecasting
    methodology. The Path to Target line drops from 1.42 in 2006 to 1.00 in 2011 and assumes an equal annual
    decrease.
    *Fatality rates are shown as the number of fatalities per 100 million vehicle-miles traveled.

Our recent audit work points to areas in which the Department can better meet the
challenge of reducing transportation fatalities through enhanced oversight of
safety programs and stronger enforcement.
                                                                                  19

Improving Motor Carrier Safety With More Complete Information on
Vehicle Crashes and Stronger Enforcement Against Repeat Violators
While quality crash data are vital to ensuring that high-risk motor carriers are
targeted for additional oversight, states are not reporting significant numbers of
nonfatal crashes to FMCSA; thus, these important data are not included in the
calculations that identify high-risk motor carriers. No single solution will resolve
this problem, but FMCSA could help by providing additional training for those
who prepare crash reports and complete independent state assessments to identify
reporting issues.     Although 15 independent state assessments have been
completed, FMCSA should ensure that the remaining states complete assessments
by the end of FY 2008, as it has promised.

FMCSA has also committed to closing a loophole in its enforcement policy that
allows hundreds of motor carriers to repeatedly violate significant safety
regulations without exposure to maximum penalties. As we reported in April
2006, motor carriers with limited ability to pay fines can repeatedly violate the
same regulation without being penalized as a “repeat offender.” FMCSA should
close this enforcement loophole in FY 2008.

Closely Monitoring Mexican Motor Carriers Operating Throughout the
United States Under the Department’s Demonstration Project
On September 6, 2007, the Department initiated a 1-year demonstration project to
permit up to 100 Mexican motor carriers to operate beyond the commercial zones
along the United States–Mexico border. Our report called on FMCSA to address
the need for coordinated, site-specific plans for checking trucks and drivers
participating in the demonstration project each time they cross the border into the
United States.

Assuming future funding for this project is approved, FMCSA will need to
coordinate with the states and U.S. Customs and Border Protection to carry out the
plans for these checks. These checks must ensure that all Mexican drivers
participating in the project are properly licensed and that all trucks display decals
denoting recent safety inspections.

Countering Fraud in the Commercial Driver’s License Program
FMCSA should likewise continue to carry out its congressionally mandated
enhancements to the commercial driver’s license (CDL) program to ensure that
only drivers with requisite skills obtain CDLs. These mandates include FMCSA’s
addressing our prior recommendations for countering fraud in the program. Over
the past 6 years, with the support of FMCSA, we have carried out investigations
with other law enforcement agencies that involved CDL fraud schemes in
26 states. These investigations have led to prosecutions in 20 states and the
                                                                                 20

identification of CDLs that were issued by corrupt state or state-approved third-
party examiners.

To its credit, FMCSA has instituted a fraud component within its CDL compliance
review program and is working with the states to identify vulnerabilities. FMCSA
also followed through on its commitment, made in response to our 2006 audit
report, to request that states track the status of drivers suspected of fraud.
Nonetheless, FMCSA must take further action to implement regulatory changes
being planned to tighten controls over CDL learner’s permits, strengthen
requirements for proving that CDL applicants are in the United States legally, and
improve the ability of the states to detect and prevent fraudulent testing and
licensing.

Resolving Hours of Service Rules for Commercial Drivers
In July 2007, the U.S. Court of Appeals for the D.C. Circuit vacated two
provisions of the rules governing the hours of service of commercial drivers,
which FMCSA issued in 2005. This was the second time in 3 years that the Court
has vacated all or part of an hours-of-service rule. In 2004, the Court vacated a
rule because the agency had failed to discuss driver health issues. Although the
agency’s treatment of that matter in the 2005 rule was challenged in the
subsequent lawsuit, the Court declined to address the issue. Instead, it held that
the 2005 rule had violated the Administrative Procedure Act by not providing an
opportunity for comment on the methodology of a fatigue model that FMCSA
used and that the agency failed to explain certain elements of that methodology.
The Court, therefore, vacated the two provisions derived from the methodology in
question. FMCSA asked the Court to delay its mandate for 1 year and has noted
the scientific, economic, operational, and procedural complexity of hours-of-
service rulemaking and the critical importance of the issue both to the trucking
industry and highway safety groups. In September 2007, the court granted a 90-
day stay. The agency should give high priority to resolution of this issue.

Improving State Accountability in Programs for Reducing Alcohol-
Impaired Driving
In 2006, the number of alcohol-related highway traffic deaths (over 17,500)
accounted for about 41 percent of all reported traffic deaths. Accordingly, no
appreciable improvement in the number of highway fatalities can be achieved until
alcohol-related fatalities drop dramatically. States are the linchpin in achieving
this drop and ensuring that the $555 million in Federal funding authorized for state
alcohol-impaired driving incentive grants are targeted toward strategies that have
the most impact.

NHTSA—the lead Federal agency responsible for reducing alcohol-impaired
driving—could assist in this effort by ensuring that the states include more
                                                                                 21

meaningful measures linked to key program strategies in their performance plans.
NHTSA has agreed to develop intermediate performance indicators that states can
use to measure performance in priority program areas. NHTSA should complete
development of such indicators by FY 2009 and, afterwards, periodically assess
the extent to which states have adopted them.

Further Reducing Railroad Collisions and Fatalities Through More Safety
Oversight
Over the past 10 years, significant progress has been made in reducing collisions
and fatalities at highway-rail grade crossings. The number of such collisions fell
by 31 percent from the end of 1996 to its end-of-2006 total of just over 2,900.
FRA’s grade crossing safety oversight activities have contributed to this progress.
However, these grade crossing collisions continue to claim over 300 lives each
year.

As we testified in May 2007, FRA can do more to reduce collisions and fatalities
at the Nation’s grade crossings. Specifically, its challenges are to focus its
oversight activities on (1) ensuring compliance with mandatory reporting
requirements, (2) increasing its involvement in investigations, (3) addressing sight
obstructions at crossings without automated warning devices, (4) establishing
reporting requirements for its national grade-crossing inventory system, and
(5) requiring states with the most dangerous crossings to develop action plans that
identify specific solutions for improved safety.

Further, FRA must continue to focus its inspection and enforcement resources on
the issues and locations most in need of attention. In March 2006, it implemented
a new National Inspection Plan, in response to our 2005 recommendations, that
called for greater use of data analysis to help target FRA’s regulations and
oversight activities on problem areas. The plan uses trend analysis of rail safety
data to identify and track predictive indicators to assist FRA in allocating
inspection and enforcement activities within a given region, by railroad and by
state. It is too soon to determine how effective these measures will be in the long
term, but it is a very positive step.


For additional information, the following reports and testimonies can be found
on the OIG web site at http://www.oig.dot.gov:

 • Motor Carrier Safety: Oversight of High-Risk Trucking Companies
 • Letter to Representative Petri regarding the Motor Carrier Safety Status
   Measurement System (SafeStat)
 • Significant Improvement in Motor Carrier Safety Since 1999 Act but
   Loopholes for Repeat Violators Need Closing
                                                                         22

• Issues Pertaining to the Proposed NAFTA Cross-Border Trucking
  Demonstration Project
• Follow-Up Audit on NAFTA Cross-Border Trucking Provisions
• Federal Motor Carrier Safety Administration Oversight of Commercial
  Driver’s License Program
• Audit of NHTSA's Alcohol-Impaired Driving Traffic Safety Program
• FRA Can Improve Highway-Rail Grade Crossing Safety by Ensuring
  Compliance With Accident Reporting Requirements and Addressing Sight
  Obstructions
• Reauthorization of the Federal Railroad Safety Program
• Actions Needed To Further Improve Railroad Safety
• Opportunities To Further Improve Railroad Safety
                                                                                                  23

6. Continuing To Make a Safe Aviation System Safer
Safety is the FAA’s highest priority. For more than 5 years, FAA and the U.S.
aviation industry have experienced one of the safest periods in history—even as
the industry was undergoing dramatic changes. However, the August 27, 2006,
crash of Comair Flight 5191 served as a reminder that we must continue to do
more to make a safe system safer.

Key challenges for FAA are:
 • Taking proactive steps to improve runway safety in light of recent serious
   incidents;

 • Ensuring consistency and accuracy in reporting and addressing controller
   operational errors;

 • Strengthening risk-based systems for external repair facilities, air carriers, and
   aircraft manufacturers;

 • Maintaining a sufficient number of inspectors with the right skills and in the
   right locations to oversee a dynamically changing aviation industry; and

 • Strengthening oversight of the Airman Medical Certification Program.

Taking Proactive Steps To Improve Runway Safety in Light of Recent
Serious Incidents
Reducing the risk of runway incursions
                                                     Figure 6-1. Runway Incursions
(potential collisions on airport surfaces) is a            FY 1999 to FY 2007
critical safety issue that requires proactive
                                                   FY 1999                           329
and ongoing effort on the part of FAA,                                                      405
airlines, and airport operators. In fact, the      FY 2001                                  407
last fatal commercial aircraft accident in the                                        339
                                                   FY 2003                           323
United States (Comair flight 5191) was the                                           326
result of a runway incident in which the           FY 2005                           327
                                                                                     330
pilots attempted to take off from the wrong
                                                  *FY 2007                                  371
runway.
                                                             0     100   200   300     400        500
                                                   *Preliminary Data
As shown in figure 6-1, the total number of
                                                 Source: FAA
runway incursions decreased from a high of
407 in FY 2001 to a low of 323 in FY 2003.
Since 2003, the number of runway incursions had leveled off until last year, when
they increased to 371. Although the most serious runway incursions (category A
and B events) decreased to 24 in 2007, very serious runway incursions continue to
occur. For example:
                                                                                 24

     • On July 19, 2007, at Chicago O’Hare International Airport, a collision was
       barely avoided when a United Airlines aircraft exited the wrong taxiway and
       taxied directly underneath the path of an arriving US Airways aircraft.
       Although the controller instructed the US Airways plane to go around, it
       overflew the nose of the United Airlines aircraft by an estimated 50 to 70
       feet.

     • On May 26, 2007, at San Francisco Airport, a controller mistakenly cleared a
       Republic regional aircraft to depart while a Skywest regional aircraft was
       landing on an intersecting runway. The Skywest aircraft was unable to stop
       short of the runway intersection and the Republic aircraft overflew it by an
       estimated 50 feet.

The seriousness of these incidents underscores the need for continual proactive
and concerted efforts, including actions to address technological as well as
programmatic solutions for improving runway safety.

A key technology for reducing runway incursions is the Airport Surface Detection
Equipment–Model X (ASDE-X) program. FAA is developing ASDE-X to aid air
traffic controllers in preventing ground collisions at airports and reducing runway
incursions. In October, we issued a report 10 on FAA’s progress in implementing
this system.

We found that ASDE-X is at risk of not meeting its cost and schedule goals to
commission all 35 systems for about $550 million by 2011 and may not achieve
all planned safety benefits. When we testified before the Senate in May 2007,
FAA had already expended about $288 million and obligated about $350 million
but had only deployed 8 of 35 systems for operational use. As of August 30,
2007, FAA deployed 11 of 35 systems for operational use. Of the 11 systems,
eight are located at airports with intersecting runways. However, FAA has yet to
implement the planned capability to alert controllers of potential collisions on
intersecting runways and taxiways at four of the eight airports requiring these key
safety capabilities.

To achieve the program’s goals and more effectively manage the program, FAA
needs to (1) improve ASDE-X management controls to reduce the risks of further
cost growth and schedule delays; (2) resolve operational performance risks with
key ASDE-X safety capabilities associated with detecting potential collisions on
intersecting runways and taxiways, including during inclement weather; and (3)
work with the airlines and airports to provide safety enhancements that were not

10
  OIG Report Number AV-2008-004, “FAA Needs To Improve ASDE-X Management Controls To
Address Cost Growth, Schedule Delays, and Safety Risks,” October 31, 2007.
                                                                                        25

included in the ASDE-X program’s rebaseline but are vital to reducing the risks of
ground collisions caused by pilot and vehicle operator errors.

In May, we issued a report 11 on FAA’s actions to address runway incursions at
four major airports. Overall, we found that several national initiatives for
promoting runway safety (undertaken by FAA as early as 2000) have subsequently
waned as the number of incidents declined and FAA met its yearly goals for
reducing runway incursions.

We identified several programmatic actions that FAA needs to take to help prevent
runway incursions systemwide. They include:

     • improving information sharing among users to identify root causes of pilot
       deviations and communicate best practices to reduce runway incursions;
     • placing additional focus on controller human factors issues and training to
       improve individual, team, and facility performance; and
     • assigning greater authority and accountability at the national level to ensure
       that runway safety remains a priority for all FAA lines of business.

FAA is in the process of addressing these concerns. For example, it appointed a
permanent executive-level director for its Runway Safety Office in August 2007—
a position that had been vacant for almost 3 years. FAA also plans to reinstate its
National Plan for Runway Safety, which has not been prepared since 2002.

In August 2007, FAA also convened a meeting with airline and airport officials,
and agreed to a five-point, short-term plan for improving runway safety. The
plan’s major focus includes:

     • conducting safety reviews at airports where wrong runway departures and
       runway incursions are the greatest concern,
     • accelerating the deployment of improved airport signage and markings at
       the top 75 airports ahead of the June 2008 mandated deadline, and
     • reviewing cockpit procedures and air traffic clearance procedures.

The success of these positive actions will depend on ensuring that the current
momentum continues and that runway safety remains a high priority for all users
of the National Airspace System.




11
  OIG Report Number AV-2007-050, “Progress Has Been Made In Reducing Runway Incursions, But
Recent Incidents Underscore the Need for Further Proactive Efforts,” May 24, 2007.
                                                                                 26

Ensuring Consistency and Accuracy in Reporting and Addressing
Controller Operational Errors
Another serious safety issue that FAA must continue to address is operational
errors—when controllers fail to maintain adequate separation between aircraft. In
FY 2007, there were 1,393 operational errors, 12 up slightly from 1,338 in FY
2006. In addition, the most serious operational errors increased from 41 to 43 in
the last year—about 1 serious operational error every 8 days.

FAA needs to ensure that all operational errors are being consistently and
accurately reported; this is a significant concern. FAA currently relies on an
inaccurate system of self-reporting of operational errors; only 20 of FAA’s 524 air
traffic control facilities have an automated system that identifies when operational
errors occur.

FAA is taking steps to correct this weakness. It is in the process of developing the
Traffic Analysis and Review Program to identify operational errors when they
occur at its Terminal Radar Approach Control (TRACON) facilities (those
facilities that currently have no automated reporting system). FAA plans to start
fielding this system in FY 2008 and estimates its completion by FY 2011.

Keeping this technology on track must remain a priority for FAA. We continue to
receive allegations that operational errors are going unreported or, in some cases,
intentionally misclassified. For example, as a result of a whistleblower complaint,
we are currently conducting an investigation at the Dallas/Fort Worth TRACON to
determine if operational errors are being inappropriately classified as pilot
deviations to deflate the number of errors attributed to the facility. This
investigation is ongoing, and we expect to report our results later this year.

FAA has also modified its severity rating system for operational errors to make the
ratings more reflective of potential collisions. The new rating system is based
solely on the proximity of the two aircraft. FAA believes this will provide a better
means for measuring the risk of a collision from an operational error so it can
better focus on the most serious incidents. However, FAA must remain committed
to finding the cause, applying remedies or mitigations, and taking action in
response to all operational errors to identify trends and prevent future such errors
from occurring.




12
     FY 2007 numbers are preliminary.
                                                                                  27

Strengthening Risk-Based Oversight Systems for Air Carriers, External
Repair Facilities, and Aircraft Manufacturers
In the past 9 years, FAA has made important progress in developing risk-based
approaches to safety oversight of air carriers, aircraft manufacturers, and—most
recently—aircraft repair stations. These systems are designed to permit inspectors
to use safety data to focus their oversight on areas of higher risk. However, to
meet the demands of an ever-evolving aviation industry, FAA must ensure that
inspectors for air carriers transitioned to the Air Transportation Oversight System
(ATOS) are properly trained in using the risk-based oversight approach; gather
more complete data on the facilities air carriers use to complete critical
maintenance; and modify its risk-based system for manufacturers to ensure that
inspectors can effectively respond to the growth in use of both domestic and
foreign suppliers.

Risk-Based Oversight System for Air Carriers: According to recent data
provided by FAA, it has now implemented ATOS at 110 air carriers; however,
there are 8 air carriers that still need to be converted to the new oversight system.
FAA plans to complete this transition by the end of this calendar year.

In addition, ATOS requires the use of a team of inspectors with specialized
expertise, not only in technical areas such as maintenance and electronics, but also
in conducting risk assessments. Based on information provided to us, FAA has
not developed a plan that details how this transition can be accomplished with its
limited inspector resources. FAA has indicated that it is reconfiguring field
offices to more efficiently use existing and newly hired inspectors in conjunction
with the transition, but it has not fully addressed how it plans to ensure that these
inspectors have the needed skills. FAA has reported that it is providing training
for inspectors transitioned to ATOS. However, conducting risk assessments is a
new skill set for FAA inspectors that may not come readily even with new hires.
For the transition to be successful, FAA must ensure it has an adequate number of
properly trained inspectors.

Oversight Systems for External Repair Facilities: During the past 2 years,
FAA has worked to move its safety oversight for aircraft repair stations to a risk-
based system; however, for this new system to be effective, FAA will have to
establish a sound process for determining where critical aircraft maintenance is
performed.

FAA developed new inspection guidance and air carrier processes to address this
problem, but these efforts still fall short of providing FAA with the information it
needs. For example, FAA developed a process for air carriers to report the top
10 critical maintenance providers used each quarter. The process is voluntary,
however, and FAA inspectors are not required to validate the data air carriers
                                                                                 28

submit. Therefore, FAA cannot be assured that it is getting the accurate and
timely information needed to determine where it should focus its inspections.
FAA plans to issue a proposed rulemaking requiring this information; but, this
process is not yet complete.

Further, FAA’s new risk-based system does not include a process for oversight of
critical repairs performed by non-certificated repair facilities. In 2005, we
reported that over 1,400 non-certificated repair facilities were performing
maintenance for U.S. air carriers and that more than 100 of these facilities were
located in foreign countries. FAA’s efforts to improve its oversight of non-
certificated repair facilities are still underway. FAA needs to clarify its guidance
so inspectors will be better equipped to identify non-certificated repair facilities
that are performing critical maintenance.

Risk-Based Oversight of Aircraft Manufacturers and Their Suppliers: In FY
2003, FAA revised its oversight system for aircraft manufacturers and their
suppliers to a more risk-based approach. However, FAA will need to modify this
system so that inspectors can more effectively oversee manufacturing operations
in the current aviation environment. The system was not designed to address the
increasingly prominent role that aircraft parts and component suppliers now play
in aviation. Rather than building the majority of their aircraft within their own
manufacturing facilities using their own staff, manufacturers now have large
sections of their aircraft built by domestic and foreign parts suppliers. For
example, 1 major U.S. manufacturer uses major parts and components from close
to 1,200 domestic and foreign suppliers to manufacture its aircraft. FAA needs to
ensure that its risk-based system includes an assessment of the number of suppliers
manufacturers now use.

Maintaining a Sufficient Number of Inspectors
The rapidly changing aviation environment makes it imperative for FAA to
maintain a sufficient number of inspectors in the right locations. FAA has about
4,000 inspectors located in offices throughout the United States and in other
countries. These inspectors must oversee both domestic and foreign aspects of
American air carriers’ maintenance and operations.

FAA expects to hire 297 aviation safety inspectors in FY 2008. During the same
period, FAA expects to lose about 210 aviation safety inspectors, resulting in a net
increase of 87 inspectors in FY 2008. FAA requested funding for these
87 inspectors in FY 2008, which would be an increase over FY 2007 staffing
levels. However, FAA faces challenges in maintaining a sufficient staff because
approximately 48 percent of the inspector workforce will be eligible to retire by
2012.
                                                                                   29

In addition, FAA must ensure adequate training for its inspectors. Using risk-
based oversight systems is a foundational part of FAA's plan to meet future
oversight challenges, but it requires that inspectors be skilled in risk analyses.
Therefore, FAA must step up its hiring and training if it is to maintain a sufficient
number of inspectors with the right skill set to provide oversight of a dynamic
aviation industry.

Strengthening Oversight of the Airman Medical Certification Program
The Airman Medical Certification Program represents a key safeguard in making
sure that the more than 600,000 licensed pilots in the United States are medically
fit to fly. The OIG, the National Transportation Safety Board, and FAA, however,
have documented hundreds of instances in which pilots failed to disclose
potentially disqualifying medical conditions. These are conditions—ranging from
heart problems to neurological and psychiatric disorders—that the Federal Air
Surgeon has identified as able to compromise a pilot’s ability to safely operate an
aircraft.

Because of concerns about FAA’s handling of falsified pilots’ medical certificates,
Congress held an oversight hearing on July 17, 2007, to better understand this
fraud among pilots who hide serious medical conditions from examining
physicians in order to retain medical certification for their pilots’ licenses. At the
hearing, FAA reiterated its commitment to ensuring the highest level of safety for
the traveling public. In following through on its commitment, FAA needs to make
certain it has an effective oversight and regulatory enforcement regimen with
which to enforce this critical safety requirement in its licensing of pilots. This is
an especially important issue, given possible regulatory changes to extend medical
certificate expiration dates, which would result in fewer opportunities for
physicians to evaluate pilots’ medical fitness.


For further information, the following reports and testimonies can be found on
the OIG web site at http://www.oig.dot.gov:

• FAA Needs to Improve ASDE-X Management Controls To Address Cost
  Growth, Schedule Delays, and Safety Risks
• Staffing at FAA’s Combined Radar Approach Control and Tower With Radar
  Facilities
• Progress Has Been Made in Reducing Runway Incursions, but Recent
  Incidents Underscore the Need for Further Proactive Efforts
• Safety Oversight of an Air Carrier Industry in Transition
• Letter to Representative Oberstar Regarding FAA Actions on Air Carriers’
  Use of Aircraft Repair Stations
• Controls Over the Reporting of Operational Errors
                                                                         30

• Alleged Cover-Up of Operational Errors at DFW TRACON
• Review of Air Carriers’ Use of Non-Certificated Repair Facilities
• Letter to Representative Oberstar Regarding FAA’s Aging Airplane Safety
  Rule
• Falsification of FAA Airman Medical Certificate Applications by Disability
  Recipients
                                                                                  31

7. Strengthening the Protection of Information Technology
   Resources, Including the Critical Air Traffic Control
   System
Fiscal year 2007 was a particularly challenging year for the Department in
managing its information technology (IT) resources. While the Department has
completed most of its scheduled security recertification reviews, the overall
effectiveness of its information security program declined because management
had to divert resources and attention to resolving Headquarters move-related
issues. In addition to establishing a common IT infrastructure for the new
Headquarters, it had to review, test, and certify security protection in more than
half of its information systems to meet the recertification requirement, as well as
correct security weaknesses previously identified in the critical air traffic control
system. FY 2008 will require continued management attention in several areas in
order to strengthen the protection of the Department’s IT resources:

   • Enhancing Air Traffic Control System Security and Continuity Planning

   • Testing and Strengthening the Information System Security Program at
     DOT Headquarters

   • Ensuring the Timeliness of Data Recording and Protection of Personally
     Identifiable Information When Interfacing With Non-Federal Systems

   • Continuing To Enhance Oversight of Information Technology Investments

Enhancing Air Traffic Control System Security and Continuity Planning
The President has designated the air traffic control system as part of the Nation’s
critical infrastructure due to the important role that commercial aviation plays in
fostering and sustaining the economy and ensuring citizens’ safety and mobility.
In FY 2007, under the Deputy Administrator’s (now the Acting Administrator)
direction, FAA undertook renewed initiatives to develop a business continuity
plan (BCP) to recover the catastrophic loss of any En Route Center and to improve
the quality of security reviews for air traffic control systems outside of the
computer laboratory. FAA has made modest progress in both areas by developing
a detailed concept of operations that thoroughly details the expected operations of
the BCP and creating a methodology for selecting high-risk operational air traffic
control systems for security review. However, these are multi-year efforts, for
which FAA faces the following challenges:

• Measuring the loss of each En Route Center’s impact on the National
  Airspace System (NAS): FAA’s plan estimates restoration of 80 percent of an
                                                                                   32

   affected En Route Center’s capabilities within 3 weeks; however, the impact
   that a disabled center will have on the NAS as a whole has not been assessed.
   Since each center relies on adjacent centers to efficiently manage air traffic, the
   loss of one center could cause a ripple effect throughout the NAS. In order for
   FAA to better understand the overall impact, it will need to conduct an impact
   analysis of the effect that the loss of 20 percent of operational capability at
   each En Route Center would have on the entire system. This analysis will help
   FAA not only determine whether the current plan provides adequate coverage
   for the entire NAS, but also prioritize BCP development efforts—the most
   critical En Route Centers receiving more attention. Also, because the plan
   would shift functionality of the disabled center to the FAA recovery site
   located at its Technical Center in Atlantic City, NJ, the analysis should
   determine the impact that an activated recovery plan would have on the
   Technical Center’s core mission—developing and testing systems used to
   support air traffic control operations and aircraft safety.

• Resolving technical and resource concerns: The success of the BCP hinges
  on FAA’s ability to overcome logistical challenges. These challenges include
  rerouting voice communications and surveillance signals from the affected En
  Route Center(s) to the recovery center, ensuring that the “spare” En Route
  Center at the Technical Center is properly staffed in the event that it is
  activated, and prior coordination with the appropriate labor unions for human
  resource management needs. Another resource concern involves funding.
  FAA has budgeted $12 million for developing and implementing the continuity
  plan. However, this funding level was not based on sufficient analysis or cost
  estimates; rather, it was obtained by reallocating excess funds from current and
  ongoing FAA projects. FAA should complete a cost and schedule analysis to
  better determine estimated costs and use these figures to secure additional
  funding commitments, if needed.

Regarding reviews of operational air traffic control systems security, FAA
developed a methodology to select high-risk systems located in the field for
testing. In fact, FAA went beyond our recommendation and applied this
methodology to systems other than those used for air traffic control. However,
FAA did not meet its commitment to us to complete its reviews of all TRACON
and tower systems by the end of FY 2007. Further, despite the improved
site-selection method, FAA did not enhance its methodology to help identify
software differences between the baseline systems at the Technical Center and the
operational air traffic control systems in the field. This deficiency could weaken
overall security protection because vulnerabilities could inadvertently be created
when software changes are made to meet local (field site) operational needs, as
evidenced in our previous audit reports. FAA needs to focus on identifying and
testing for unauthorized software changes in field air traffic control systems.
                                                                                33


Testing and Strengthening the Information System Security Program at
DOT Headquarters
The Department will continue to face important challenges in FY 2008 as it seeks
to enhance its information system security program, specifically in meeting
tougher Federal government security standards, correcting identified security
deficiencies, and securing its IT infrastructure—all at a time of heightened
vulnerability.

Risk categorization is the key to determining the level of security protection
needed for individual systems. Systems categorized as having a high-risk impact
on the Department’s mission must meet a more stringent security standard than
moderate- or low-risk-impact systems. We have continued to find deficiencies in
risk categorization and insufficient implementation of minimum security
protection. For example, of about 100 systems used to direct air traffic control
operations, none were reported as having high-risk impact. Systems identified by
FAA as high-risk impact are primarily for administrative functions, such as the
procurement system. After this was brought to management’s attention, the
departmental Chief Information Officer, the FAA Acting Deputy Administrator,
and the FAA Chief Information Officer all agreed to collaborate with the Air
Traffic Organization to ensure that air traffic control systems are individually
reviewed and categorized in accordance with National Institute of Standards and
Technology standards and DOT policy, as a key priority for FY 2008.

Also of concern is a reversal of the improvement we saw last year in which
security deficiencies identified during certification reviews were well tracked and
prioritized for correction. Management did not give the same amount of attention
to correcting identified security deficiencies in FY 2007 as it did in FY 2006. The
Department needs to better address the new Federal government security standards
and correct its security deficiencies.

In addition, the Department has made little progress in configuring the commercial
off-the-shelf software installed on DOT computers to comply with government or
departmental security standards to reduce known vulnerabilities. As a result of
improper configuration, DOT network computers remain vulnerable to attack.
Also, with the new common IT infrastructure, the Department has significantly
expanded its ability to utilize secure connections on the Internet by using virtual
private network (VPN) access. However, when employees connect their home
computers to Departmental networks, it creates security exposure because the
home computers may not be properly secured. The Department needs to take
stronger action to ensure secure configuration of commercial software and secure
connections on its new IT infrastructure, particularly as it seeks to dramatically
expand employees’ use of telecommuting.
                                                                                                     34

Ensuring the Timeliness of Data Recording and Protection of Personally
Identifiable Information When Interfacing With Non-Federal Systems
The Department is responsible for maintaining the National Driver Register
(NDR) information system, which contains tens of millions of profiles on drivers
convicted of such offenses as driving under the influence of alcohol. State
officials are required to report to the NDR drivers who receive traffic convictions,
along with their personally identifiable information, such as name, date of birth,
gender, height, weight, eye color, and social security number. Keeping problem
drivers off the road is critical to reducing highway fatalities and injuries. 13

Timely recording of drivers with traffic convictions in the NDR is critical to
preventing problem drivers from “license shopping”—going to a different state to
get a new driver’s license when their current licenses are suspended or revoked.
The law requires states to submit problem drivers’ profiles to the NDR within 31
days of receipt of conviction information. However, only slightly more than one-
third of our sample records met this requirement. Further, according to our
estimate, state officials did not record 6 million problem drivers in the NDR until
at least 1 year after conviction. This delayed reporting significantly impaired
other states’ ability to keep problem drivers from getting licenses. The
Department needs to work with the states to improve the timeliness of problem
drivers’ profiles being sent to the NDR.

While drivers’ personally identifiable information was properly secured in the
NDR mainframe database, it was exposed to unauthorized access or unapproved
use when outside of the mainframe computer. For example, while Federal security
standards require that sensitive information be encrypted when transmitted on
networks, NDR records were not. Instead, they were transmitted in clear text and
thus subject to unauthorized access during transmission. This security deficiency
existed partly because a non-Federal entity is responsible for managing the
transmission network. This network also supports transmission of other critical
transportation-related data. 14 To protect the public’s personally identifiable
information, the Department needs to ensure that security requirements and the
associated authorities or responsibilities are properly specified and documented
with its interfacing partners.




13
   There are more than 200 million licensed drivers in the United States, of whom 42 million have records
   in NDR. In 2006, more than 70 million people applied for driver’s licenses, 9 million of whom were
   found to have a conviction recorded in NDR.
14
   The same network is also used to support Commercial Driver’s License Information System (CDLIS)
   operations, for which the Department has oversight responsibility.
                                                                              35

Continuing To Enhance Oversight of Information Technology
Investments
A challenge that still confronts the Department is completing the implementation
of an earned value management (EVM) system. During FY 2007, the Department
revised its Investment Review Board’s charter by delegating more responsibilities
to individual Operating Administration review boards to oversee their specific IT
investments. Regardless of the change in governance responsibility, establishing
clear measurement benchmarks against which to evaluate major investment
projects such as EVM is key to effective management of cost, schedule, and
performance of large (multi-year) development projects. In FY 2006, only
23 percent of major Departmental IT investment projects met at least half of the
Office of Management and Budget’s criteria for EVM implementation. During
FY 2007, the figure was 35 percent—a modest improvement. The Department
needs to continue to enhance EVM implementation to ensure fiscal discipline with
major investment projects, which is especially critical in today’s tight economic
environment.


For further information, the following reports and testimonies can be found on
the OIG web site at http://www.oig.dot.gov:

 • DOT Information Security Program
 • Volpe Center’s IT Security and Resource Management Activities
 • DOT Delphi Financial System Controls
 • Security and Controls Over the Remote Maintenance and Management System,
   FAA
 • Security and Controls Over Technical Center Computer Systems, FAA
 • Security and Controls Over En Route Center Computer Systems, FAA
 • Office of the Chief Information Officer’s Budget, DOT
                                                                               36

8. Managing Acquisition and Contract Operations More
   Effectively To Obtain Quality Goods and Services at
   Reasonable Prices
With an annual procurement budget of about $5.6 billion for goods and services,
the Department needs to ensure that more attention is placed on acquisition and
contract operations. We continue to find weaknesses throughout DOT. Our
investigations also continued to identify fraud and abuse and other ethical issues
involving DOT officials and contractors.

Providing increased attention to ensuring that procurement and acquisition
activities are conducted in an efficient and effective manner and that taxpayer
dollars are protected from fraud and abuse is a Government-wide priority. The
Department is improving its administration of contracts and grants. For example,
it has begun working more closely with the Defense Contract Audit Agency
(DCAA) to help identify high-risk contracts for audit. In addition, the FHWA
recently issued a manual containing best practices on overseeing grants and
cooperative agreements.

Last year, we completed a major initiative to help improve contract and
acquisition practices throughout DOT by establishing a contract and acquisitions
audit group. The team will continue to meet with senior Department contracting
officials to discuss procurement issues and will increase its efforts to review
procurements, contracts, and acquisition programs to enhance controls.

While DOT agencies are cooperating on eliminating problems as they arise and
implementing actions to improve oversight processes, DOT must be more
proactive and enhance its vigilance and oversight. We have identified several
areas in which the Department must focus its attention in order to enhance its
acquisition and contract management oversight:

   • Increasing Incurred-Cost Audits of Procurement Contracts To Reduce
     Unallowable Charges

   • Developing Strategies for the Future Acquisition Workforce

   • Fostering High Ethical Standards Throughout the Department and Its
     Contracting Programs To Maintain Public Trust

   • Enhancing Oversight on Federal-Aid Construction Projects To Prevent
     Abuse in Contractor Quality Control Programs
                                                                                            37

Increasing Incurred-Cost Audits of Procurement Contracts To Reduce
Unallowable Charges
Contract audit services provided by DCAA are a valuable tool for assisting
contracting officers in combating excessive prices and unallowable charges.
Monetary benefits from DCAA audits not only cover audit costs but can also
reduce program costs. From FY 2001 through FY 2005, DOT Operating
Administrations saved over $4 for every $1 spent on these audits.

The Department is doing more to obtain these needed audits. DOT’s Office of the
Senior Procurement Executive has been working with DCAA, the Operating
Administrations, and the Office of Inspector General to find better methods for
obtaining needed audits. Additionally, responding to our recommendation, FAA
revised its guidance to require that all cost-reimbursable contracts over
$100 million and 15 percent of those contracts under $100 million obtain post-
award audits of allowable costs incurred. At other DOT agencies, incurred-cost
audits are preferred, unless sufficient justification is documented for not obtaining
them. Resolution of audit recommendations must be made within a maximum of
6 months after issuance of a final report.

However, these policies need to be implemented more effectively throughout the
Department. Our recent report 15 , covering all DOT agencies other than FAA,
discussed how many Operating Administrations did not consistently follow
Departmental and Federal Acquisition Regulation guidance for obtaining incurred-
cost audits. We also reported that they did not consistently take adequate action to
resolve audit findings for the audits DCAA conducted. Contracting officers also
need to take more consistent action in a timely manner to recover overpayments
made to contractors. To illustrate, between FY 2001 and FY 2005, DCAA
identified $48 million in questioned costs, of which contracting officers resolved
about $36 million. However, contracting officers missed opportunities to recover
the remaining $12 million in questioned contract costs. The Department agreed
with the findings and recommendations contained in the report. The Department
needs to follow through on its commitment, in response to our report, to obtain
more incurred-cost audits and resolve questioned contract costs in a timely
manner.

Developing Strategies for the Future Acquisition Workforce
Having the right people with the right skills is critical to ensuring that DOT
receives the best value for the $5.6 billion it spends each year for goods and
services. Like all executive agencies, DOT is required to collect, maintain, and
utilize information on education, training, career development, and accession to
ensure effective management of the acquisition workforce.
15
  OIG Report Number FI-2007-064, “More Incurred-Cost Audits of DOT Procurement Contracts Should
Be Obtained,” August 29, 2007.
                                                                                38


As required by the Office of Management and Budget, DOT is in the process of
developing a human capital strategic plan for its acquisition workforce. However,
DOT is facing a considerable challenge in developing such a plan. According to a
senior Department official, they are having difficulty determining which positions
comprise the acquisition workforce. Additionally, DOT lacks complete data on
the acquisition workforce, such as information on workforce size, knowledge and
skills, attrition rates, and retirement rates. Without such critical data, the
Department cannot properly identify the current condition of the workforce and
decide what needs to be done to ensure that it has the right composition, mix of
skills, and talent for the future.

Fostering High Ethical Standards Throughout the Department and Its
Contracting Programs To Maintain the Public Trust
DOT employees in contracting-related positions represent the first—and best—
line of defense in ensuring program integrity, and a challenge for the Department
(as with any government agency) is to develop and maintain robust ethics
programs. Contracting officers and their technical representatives, cooperative
agreement and grants administrators, and managers are relied upon for the timely
recognition and reporting of fraud indicators. Along with effective internal
controls and oversight mechanisms, their vigilance is essential to combating fraud.

An example of effective vigilance is a recent FAA case involving an almost
$2-billion multiple awards procurement program. FAA had conducted an internal
review, finding evidence of a fraud scheme being perpetrated by multiple
contractors. The ensuing investigation conducted by FAA and our office found
that 13 of the 30 contractors had significantly overcharged FAA. Specifically,
over a 3-year period, these 13 firms had billed FAA for employees at labor rates
that were often considerably higher than their actual education and experience
warranted, as specified by terms of the contract. As a result, FAA has recovered
over $8 million in overcharges and further tightened its internal controls to guard
against recurrence.

Ethical lapses by DOT employees involved in contracting also sometimes occur.
For example, at one Operating Administration, a former program manager pled
guilty to felony charges for accepting $160,000 in exchange for steering contracts
worth about $8 million to an IT services firm headed by a former employee. In
another case, an Operating Administration contracting officer and a supervisor
provided confidential bid information to a foreign-owned entity to help it underbid
its competitor, a U.S.-owned firm, and win a $4.3-million contract for construction
of lighting system infrastructure. The two employees pled guilty to felony
procurement fraud charges and are no longer employed by DOT.
                                                                               39

In many of the cases we have investigated, DOT employees did not maintain an
appropriate “arms-length” relationship with contractors and cooperative agreement
recipients, presenting criminal implications for both employees and contractors
alike.

The Department must continually promote and reinforce ethical standards to help
guard against such breaches of integrity in its extensive contract, cooperative
agreement, and grants programs. Prevention and deterrence of ethical lapses in
any organization depends upon both the effectiveness of internal controls and
oversight processes, and a robust ethics awareness and training program.

Agency ethics programs need to have particular emphasis placed on employees
involved in awarding and administering contracts, cooperative agreements, and
grants. Enhanced ethics training should include discussions of actual ethics
violations and “what if” scenarios of situations to avoid. While computer-based
training is beneficial, there is no substitute for personal contact between ethics
officials and employees. Moreover, DOT ethics officials should periodically
review the ethics programs of agency contractors to help prevent ethical
breakdowns.

Enhancing Oversight on Federal-Aid Highway Construction Projects To
Prevent Abuse in Contractor Quality Control Programs
A challenge facing FHWA is ensuring that taxpayers are provided the quality of
products and services they pay for and expect from contractors on Federal-aid
highway construction projects. To leverage scarce State oversight resources, State
DOTs partner with industry and directly perform quality assurance materials
testing only on a sample basis in order to validate the results of more extensive
quality control testing by contractors. We, however, are seeing more cases
involving fraudulent quality control testing by contractors. FHWA’s stewardship
reviews of State DOTs conducted between 2003 and 2006 have also identified
deficiencies in many State DOT quality assurance programs.

For example, during the last year, we investigated several cases in which company
employees manipulated quality control test results to falsely earn contract
incentives. In one such case, a contractor had delivered about 5,700 trucks’ worth
of substandard concrete to the Central Artery/Tunnel Project in Boston. The
contractor ultimately pled guilty to conspiracy to defraud the government and
agreed to pay $50 million in restitution and fines and to establish a corporate
integrity program, among other penalties. FHWA needs to exercise continued
vigilance of State DOT quality assurance oversight programs to better mitigate
fraud.
                                                                            40

For additional information, the following reports can be found on the OIG web
site at http://www.oig.dot.gov:

   • Oversight of Cost-Reimbursable Contracts
   • Audit of the Actions to Prevent Fraud on Cooperative Agreements With
     Universities
   • More Incurred-Cost Audits of DOT Procurement Contracts Should Be
     Obtained
                                                                                                          41

9. Reforming Intercity Passenger Rail
Intercity passenger rail is an integral part of our Nation’s transportation system,
particularly in light of growing highway and aviation congestion. However,
Amtrak’s 16 contribution to the transportation system may be limited by its capital
funding needs, which may be difficult to meet given constrained Federal
resources. Therefore, the Department must use all tools at its disposal, including
seeking consensus on a reauthorization, to ensure that Amtrak reduces its
operating costs and improves its operating performance, thereby freeing funds for
Amtrak’s capital needs and increasing Amtrak’s viability as a transportation
alternative.

Improving Amtrak’s Cost-Effectiveness To Sustain Its Financial Progress
Amtrak projects a $1 billion operating loss in FY 2007. While Amtrak continues
to implement strategic reforms to improve its cost-effectiveness, the pace of these
reforms has slowed. Amtrak implemented $61 million in reforms in FY 2006, and
planned to implement only $46 million in reforms in FY 2007 and $40 million in
FY 2008. Since February 2007, the company reduced its projected FY 2008
savings from reforms by half.

While reforms have slowed, Amtrak faces significant and increasing financial
challenges. Amtrak’s recent improvements in revenues are due, in part, to factors
beyond its control, such as the high cost of gasoline that contributed to increases in
ridership. It is unclear whether Amtrak can sustain these revenue improvements.
A labor agreement, when it is reached, will increase Amtrak’s operating costs. A
significant investment will be required to return Amtrak’s physical infrastructure
to a state of good repair, meet the Americans With Disabilities Act requirements,
and replace Amtrak’s aging passenger cars and locomotives.

The uncertainty and precarious nature of Amtrak’s revenue structure, its inability
to shed costs quickly to match revenues, and its near-term financial demands all
require Amtrak to emphasize cost control and cost improvement. The Department
needs to use its position as a member of the Amtrak Board of Directors and its role
in approving funding for Amtrak’s routes and capital projects to help maintain
Amtrak’s focus on improving the cost-effectiveness of its operations.

Overcoming Challenges to Improving Amtrak’s On-Time Performance
On-time performance continues to plague Amtrak service, threatening its ability to
sustain increased revenues and reduce operational costs. Amtrak service outside
the Northeast Corridor operates on freight railways, and these railways have
experienced tremendous growth in tonnage shipped over the past 5 years. This has

16
     Amtrak is the federally supported company established in 1971 to provide intercity passenger rail.
                                                                                   42

resulted in increased congestion and delays for both Amtrak and freight trains. In
addition, the widespread loss of experienced dispatchers within the industry due to
retirements has increased freight and passenger rail conflicts. The Department has
worked with Amtrak and freight railroads in the Southeast to improve Amtrak’s
on-time performance. The Department will need to expand these efforts to
improve Amtrak service reliability throughout its system.

Reauthorizing Amtrak To Facilitate Reform
Amtrak’s efforts at reform are not a substitute for reauthorization. Its ability to
achieve its stated goal of “continuous improvement” is limited within the current
framework. To go beyond marginal cost and service improvements will require an
authorization bill that realigns the size, operations, and governance of the intercity
passenger rail system to match the levels and sources of funding available and
provides Amtrak with the tools and incentives to provide cost-effective, high-
quality service. The Department needs to work with Congress and other
stakeholders to finally break the cycle of appropriations without authorization for
Amtrak, and provide Amtrak with these needed tools and incentives.

For further information, the following reports and testimonies can be found on
the OIG web site at http://www.oig.dot.gov:

 • Amtrak’s Board of Directors Provides Leadership to the Corporation but Can
   Improve how it Carries Out Its Oversight Responsibilities
 • First, Second, and Third Quarterly Reports on Amtrak’s FY 2007 Operational
   Reform Savings and Financial Performance
 • First, Second, Third, and Fourth Quarterly Reports on Amtrak’s FY 2006
   Operational Reform Savings and Financial Performance
 • Intercity Passenger Rail and Amtrak
 • Reauthorization of Intercity Passenger Rail and Amtrak
 • Analysis of Cost Savings on Amtrak’s Long-Distance Services
 •Assessment of Amtrak’s 2003 and 2004 Financial Performance and
   Requirements
                                                                                                43


EXHIBIT. COMPARISON OF FY 2008 AND FY 2007 TOP
MANAGEMENT CHALLENGES



         Items in FY 2008 Report                          Items in FY 2007 Report
• Continuing To Enhance Oversight To Ensure      • Making the Most of the Federal Resources
  the Safety of an Aging Surface                   That Sustain Surface Transportation
  Transportation Infrastructure and Maximize       Infrastructure Improvements by Continuing
  the Return on Investments in Highway and         To Emphasize Project Oversight
  Transit Infrastructure Projects
• Addressing Long- and Short-Term                • FAA Reauthorization – Reaching Consensus
  Challenges for Operating, Maintaining, and       on a Financing Mechanism To Fund FAA
  Modernizing the National Airspace System         and Establishing Funding Requirements
• Developing a Plan To Address the Highway
  and Transit Funding Issues in the Next                              ___
  Reauthorization
• Reducing Congestion in America’s               • Defining, Developing, and Implementing
  Transportation System                            Strategies To Improve Congested
                                                   Conditions on the Nation’s Highways, Ports,
                                                   Airways, and Borders
• Improving Oversight and Strengthening          • Strengthening Efforts To Save Lives by
  Enforcement of Surface Safety Programs           Improving Surface Safety Programs

• Continuing to Make a Safe Aviation System      • Aviation Safety–Performing Oversight That
  Safer                                            Effectively Utilizes Inspection Resources
                                                   and Maintaining Aviation System Safety
• Strengthening the Protection of Information    • Protecting, Monitoring, and Streamlining
  Technology Resources, Including the Critical     Information Technology Resources
  Air Traffic Control System
• Managing Acquisition and Contract              • Improving Acquisition and Contract
  Operations More Effectively to Obtain            Management To Reduce Costs and
  Quality Goods and Services at Reasonable         Eliminate Improper Payments
  Prices
• Reforming Intercity Passenger Rail             • Achieving Reform of Intercity Passenger
                                                   Rail
                                                 • Responding to National Disasters and
                     ___                           Emergencies – Assisting Citizens and
                                                   Facilitating Transportation Infrastructure
                                                   Reconstruction
                                                 • Strengthening DOT’s Coordination of
                     ___                           Research, Development, and Technology
                                                   Activities and Funding




Exhibit. Comparison of FY 2008 and FY 2007 Top Management Challenges
                                                                                                      44



           APPENDIX. DEPARTMENT COMMENTS


           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation

           ACTION: Departmental Comments on the OIG Draft
Subject:   Report – Top Management Challenges, Department of                  Date:    October 30, 2007
           Transportation

           Phyllis F. Scheinberg
                                                                           Reply to
  From:    Assistant Secretary for Budget and                              Attn. of:
            Programs/Chief Financial Officer

    To:    Calvin L. Scovel III
           Inspector General

           The U.S. continues to enjoy the world’s foremost transportation system, which offers
           unprecedented connectivity and safety that is a bedrock of this Nation’s economic
           prosperity. Throughout the last century, the U.S. built the most extensive highway
           system in the world and developed a far-reaching National Airspace System. However,
           today our transportation system faces significant challenges. We value the perspectives
           offered in the Office of Inspector General’s (OIG) report on the Top Management
           Challenges and will make good use of the information it contains. However, several
           items cited reflect larger national policy issues, not simply departmental management and
           performance concerns. Therefore, we are taking this opportunity to offer some additional
           perspective on the top issues facing the Department.

           Congestion and delays on the Nation’s highways and airspace are now widespread and
           acute, affecting both passenger travel and freight movement, and ultimately the nation’s
           economic well being. In the past 20 years, hours of delay and wasted fuel have each
           increased by more than 400 percent. In 2005, highway and transit congestion wasted 4.2
           billion hours of time and 2.9 billion gallons of fuel. The cost for this wasted time, fuel
           and the lost productivity associated with it, exceeds $170 billion per year, and continues
           to worsen. In aviation, while we continue to enjoy the safest period in aviation history,
           congestion and delays continue to grow, stretching the capacity of our aviation system to
           the limit. This past summer saw record delays in flights across the country, up nearly 20
           percent compared to just one year ago. The sum total of aircraft delays during this period
           was more than 15 years, with nearly half of that in the New York/New
           Jersey/Philadelphia region alone.

           The Department will continue to address these issues to the fullest extent of its authority.
           We are seeking to turn these challenges from the last century into the opportunities of this


           Appendix. Department Comments
                                                                                         45

century. Addressing these longstanding policy issues will require sustained and
cooperative efforts not just by the Department but also by the Congress, transportation
providers and users. While your Top Management Challenges Report examines these
issues through the lens of the Department, it will only be through the combined action of
all parties that we can move forward with innovative solutions to reduce congestion and
increase efficiency, while continuing to improve transportation safety. We view the
challenges facing the transportation community as falling into three groupings: (1)
reshaping transportation financing to promote efficient use of existing infrastructure and
to provide cost effective new infrastructure, (2) implementing congestion management
initiatives to break the gridlock growing on our Nation’s highway and airspace, and (3)
continuing to improve the safety of our Nation’s transportation system.

Reshaping Transportation Financing is Critical to Successful Transportation
Investments

The Department is at a funding crossroads, where several measures pending before the
Congress have the potential to fundamentally reshape and improve our transportation
future. With bold and courageous decisions, we can enjoy a future with less congestion,
modernized transportation systems, and more efficient and productive use of increasingly
limited taxpayer dollars. The alternative is the status quo, with increasing congestion,
investment decisions made without cost benefit analysis or performance expectations,
and a future of increasing costs and uncertain benefits. Three pieces of legislation are
vital to shaping this future; aviation reauthorization, Amtrak reauthorization, and surface
transportation reauthorization. The laws that ultimately result from these efforts have the
potential to change our transportation system.

The Federal Aviation Administration (FAA) has been preparing to implement a cost-
based user-funded structure that will base revenues on a specific, transparent assessment
of what it costs to maintain the National Airspace System. Based on years of extensive
analysis, FAA now has a viable cost allocation system. Using this capability, it is able to
assess the cost users impose on the National Airspace System. While significantly more
complex, this is the same basic approach that consumers experience in their use of
electricity, water and natural gas. It is a model that promotes efficient use of these
utilities. In contrast, our current method for funding the National Airspace System is
analogous to charging households for electricity based on the size of their house, or the
number of household occupants, rather than their actual utilization. Numerous bipartisan
commissions have recommended cost-based funding for FAA over the last two decades,
and we firmly believe that a cost-based funding structure offers the best means to
efficiently make the major capital investments required for a transition to the Next
Generation Air Transportation System (NextGen).

Amtrak has been operating without legislative reauthorization for over 6 years,
preventing the types of fundamental reforms called for by multiple bodies of experts and
this Department. The Nation currently has a flawed model for providing intercity
passenger rail service that does not encourage innovation or emphasize accountability.
The Administration's goal is to create sustainable, demand-driven service by,



Appendix. Department Comments
                                                                                           46

empowering states and localities to direct rail investment and fostering opportunities for
participation by alternative rail service providers. Key aspects were first spelled out by
then-Secretary of Transportation Mineta in 2002, and remain valid today. The
Department awaits Congressional action to (1) create a system driven by sound
economics, (2) require that Amtrak transition to a pure operating company, (3) introduce
carefully managed competition to provide higher quality service at reasonable prices, (4)
establish a long-term partnership between states and the federal government to support
intercity passenger rail service, and (5) create an effective partnership, after a reasonable
transition, to manage the capital assets of the Northeast corridor. Amtrak continues to
operate without making fundamental changes, resulting in excessive expenditures that
fail to meet any reasonable cost benefit. Without the statutory framework necessary to
achieve increased efficiencies and improve cost benefit, the Department can act only at
the margins to affect positive change on Amtrak operations.

We are now more than halfway through the existing surface transportation authorization.
The Department has already begun a dialogue with the Congress and transportation
stakeholders to focus future surface transportation investments using data-driven,
performance-oriented techniques that offer the greatest potential transportation benefit
from each dollar of investment. In contrast, today’s Federal investment strategy
discourages the proper pricing of transportation infrastructure, fails to sufficiently reward
innovation and technology development and does not prioritize investments based on
performance and benefit. We are currently spending billions of dollars more than we
collect in tax revenues each year. As a result, the Highway Account of the Highway
Trust Fund is projected to experience a substantial cash shortfall for the first time in
2009. The Mass Transit Account is also expected to experience a shortfall in 2011. The
Nation’s transportation community must work together to increase the efficiency of our
transportation investments, improve benefits to the taxpayers, and reduce congestion.

Action Needed to Address the Gridlock in the Air and on our Nation’s Highways

The FAA is working to expand and further improve management of available airspace
capacity. Since 2000, thirteen new runways have opened at major airports providing the
capacity to accommodate 1.6 million more annual operations. Even the three more
runways now under construction will not be enough to accommodate the projected
growth in air travel. The Department faces a significant challenge of putting necessary
airport capacity in place while simultaneously addressing environmental concerns.
Nowhere is this more evident than in the New York/New Jersey/Philadelphia area. FAA
has worked long and hard to improve the efficiency of this key area in the National
Airspace System while accommodating the environmental concerns of those living in the
vicinity. This airspace redesign project offers the potential to eliminate 200,000 hours of
aircraft delays per year, and reduce airline operating costs by up to $285 million per year,
while reducing exhaust emissions.

We have also been taking other near-term actions to reduce air travel delays and better
use existing capacity. For example, the Secretary and FAA are working with key airports
and the airlines that use them to achieve a more realistic scheduling of flights and reduce



Appendix. Department Comments
                                                                                          47

delays. In addition, FAA is constantly working to have an adequately staffed and
expertly trained air traffic controller workforce. That is why FAA developed and has
been implementing a comprehensive Controller Workforce Plan to address the wave of
retirement-eligible controllers over the next ten years. FAA has taken proactive steps to
ensure it has the right people in the right place and time. These steps include expanding
the Collegiate Training Initiative, increasing recruiting through forums such as job fairs
and streamlining clearance processes. FAA hired over 1,100 controllers last year, is on
track to hire another 1,700 controllers this year, and will carefully monitor actual trends
and the workforce plan to continue hiring the appropriate number of controllers in the
future.

In the longer term, anticipated growth in the use of the National Airspace System will
require a new approach to air traffic control, which FAA has embodied in the NextGen
initiative. NextGen is a steady, deliberate and highly collaborative undertaking which
focuses on leveraging the latest technologies, such as satellite-based navigation,
surveillance, and network-centric systems. It is intended to be flexible enough to take
advantage of even newer and better technologies as they emerge.

The Department is also pursuing innovative means to reduce surface transportation
congestion. For example, the urban partnership program will provide over $800 million
to support tolling and other congestion-relief demonstration projects in Seattle, San
Francisco, Minneapolis, Miami, and New York City. New York’s congestion pricing
plan, if fully authorized by the state, will provide incentives for off-peak travel in
Manhattan and finance substantial upgrades to the Nation’s largest transit system. The
other cities also plan to experiment with tolling and transit improvements that we believe
can have tremendous impact. In addition, the Corridors of the Future program has
identified six critical multistate corridors that together carry nearly 23% of the Nation’s
traffic and has begun to work with applicants on making improvements to these facilities.
Elements of the program include building new capacity, adding lanes to existing roads,
building truck-only lanes and bypasses, and integrating real-time traffic technology such
as lane management that can match available capacity on roads to changing traffic
demands. These advances offer the hope of reduced congestion, reduced emissions, and
greater value to the users.

DOT Maintains a Sharp Focus on Continuously Improving Aviation and Surface
Transportation Safety

While the U.S continues to enjoy the safest aviation system in the world, FAA is
persistent in its drive to achieve further improvements. Fiscal year 2007 passed without a
single major air carrier accident. By the end of calendar year 2007, FAA is on track to
have all of the current 120 major air carriers regulated under 14 CFR part 121
transitioned to the data-driven, risk-based, Air Transportation Oversight System (ATOS).
This is a significant achievement the organization has been working towards for years. In
April 2007, FAA also took steps to enhance its oversight of maintenance programs to
ensure that work performed by certificated and non-certificated repair facilities is
accomplished within the scope of the contract and in compliance with the air carriers’



Appendix. Department Comments
                                                                                         48

maintenance instructions for continued airworthiness. In addition, in May 2007, FAA
completed a 10-year, Aviation Safety Workforce Plan, to address safety staffing,
inspector attrition, and anticipated changes in the aviation industry. Finally, FAA has
established recruiting plans to fill its most critical safety occupations. Each of these
actions is a noteworthy accomplishment that will assist the agency in its relentless drive
to further improve safety.

Highway crashes account for 99 percent of all transportation related fatalities and injuries
and are the leading cause of death for Americans between the ages of 2 and 34. Alcohol
is still the single largest contributing factor in fatal crashes and about 55 million people
still do not use safety belts all of the time when driving. However, some progress is
being achieved. In 2006, the number of people killed in motor vehicle crashes fell 2
percent to 42,642. Fatalities resulting from large truck and bus crashes account for about
12 percent of these of these fatalities while motorcycle fatalities continue to increase,
now accounting for 11 percent of the total highway fatalities. Despite progress in some
areas, the number of people losing their lives on the Nations’ highways remains far too
high.

Numerous initiatives are underway to further improve highway safety, better target
inspection and compliance resources, increase safety belt use, reduce impaired driving,
and improve the safety of the vehicles we drive. The Federal Motor Carrier Safety
Administration has launched a major initiative called the Comprehensive Safety Analysis
2010 to better target its inspection and compliance resources. The National Highway
Safety Administration (NHTSA) continues to work with the states to increase the
percentage of drivers using safety belts from the current national average of 82.4 percent.
In the area of impaired driving, NHTSA further enhanced its program to focus on high
risk populations. Extra funding has been provided to the ten states with the highest
impaired driving fatality rates, and NHTSA is evaluating technology such as ignition
interlocks, as a potential means to further reduce deaths and injuries from impaired
driving. NHTSA also continues its critical work to make vehicles safer. In April of this
year, NHTSA issued a final rule to require Electronic Stability Control in vehicles. Data
has shown that these systems can reduce fatal single vehicle crashes by 63 percent for
sport utility vehicles and 36 percent for passenger cars. Finally, NHTSA is working to
identify the most effective means to address motorcycle safety problems. It recently
distributed a guide to assist states and communities in creating programs to improve
motorcycle safety. It incorporated motorcycle operators in high visibility enforcement
programs and completed a study to determine impairment levels for motorcycle riders. In
the coming year, NHTSA plans additional actions to improve motorcycle training,
improve helmets, and explore vehicle safety approaches to improving safety.

Thank you for the opportunity to offer management’s perspectives on the Department’s
Top Management Challenges. We look forward to a continued constructive exchange of
ideas and information with you in each of these areas.




Appendix. Department Comments
The following page contains textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here to assist
screen readers.
Figure 5-1: In the Coming Years, the Highway Fatality Rate Will Need To Fall Below
Projected Rates To Meet the Target Rate by 2011

Note: Fatality rates are shown as the number of fatalities per 100 million vehicle-miles traveled.
 Year                          2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
 Actual Fatality Rate          1.51 1.51 1.48 1.44 1.46 1.42          0     0     0     0     0
 Projected Rate                  0     0      0    0     0      0   1.41 1.39 1.38 1.36 1.34
 Path to Target                  0     0      0    0     0      0   1.34 1.25 1.17 1.08 1.00

Source: Actual fatality rates are from the National Highway Traffic Safety Administration’s 2005
Transportation Safety Facts and 2006 Annual Assessment Report. Projected rates for 2007 through
2011 were calculated using the National Highway Traffic Safety Administration’s forecasting
methodology. The Path to Target line drops from 1.42 in 2006 to 1.00 in 2011 and assumes an equal
annual decrease.


Figure 6-1: Runway Incursions FY 1999 to FY 2007

            Fiscal Year           Runway
                                 Incursions
         FY 1999                    329
         FY 2000                    405
         FY 2001                    407
         FY 2002                    339
         FY 2003                    323
         FY 2004                    326
         FY 2005                    327
         FY 2006                    330
         FY 2007*                   371

        Source FAA
        *Preliminary Data
